https://nextcorrectional.westlaw.com/Document/Ia2fb672008211 leb8...

Leatherwood v. Braggs | WestlawNext

WESTLAW
Leatherwood v. Braggs
United States Court of Appeals, Tenth Circuit. 1 October 6, 2020

829 Fed.Appx 363

(Approx. 6 pages)

829 Fed.Appx. 363
This case was not selected for publication in West's Federal Reporter.
See Fed. Rule of Appellate Procedure 32.1 generally governing citation of judicial decisions
issued on or after Jan. 1, 2007. See also U.S.Ct. of App. 10th Cir. Rule 32.1.
United States Court of Appeals, Tenth Circuit.

Michael Don LEATHERWOOD, Petitioner-Appellant,
v.

Jeorld BRAGGS, Jr., Respondent-Appellee.
No. 20-6106
FILED October 6, 2020
Synopsis
Background: Following state court's revocation of his suspended sentence for
convictions on six counts of rape, and affirmance of the denial of his first federal
application for habeas relief, 861 F.3d 1034, state prisoner filed second application for
habeas relief. The United States District Court for the Western District of Oklahoma, Joe
Heaton, Senior District Judge, 2020 WL 3470310, adopted report and recommendation of
Shon T. Erwin, United States Magistrate Judge, 2020 WL 5352006, and dismissed the
application as untimely and declined to grant a certificate of appealability (COA). The
District Court later denied prisoner's motion for relief from judgment. Prisoner then
requested a COA from the Court of Appeals with respect to both dismissal of his
application and the denial of his motion for relief from judgment.
Holdings: The Court of Appeals, Hartz, Circuit Judge, held that:
1 state court's revocation of remaining 15 years of prisoner's suspended sentence did not
violate prisoner's due process rights;
2 prisoner's counsel was not ineffective at the revocation hearing; and
3 prisoner's claim that state courts violated his right to due process in improperly disposing
of his claims during postconviction proceedings was not a cognizable federal habeas claim.
Appeal dismissed.
Appellate ReviewPost-Conviction Review
West Head notes (4)
Change View

1 of 6

1/4/2021 1:25 PM

Leatherwood v. Braggs | WestlawNext

https://nextcorrectional.westlaw.com/Document/Ia2fb672008211 leb8...

Constitutional Law
Conditions
Sentencing and Punishment 0s Announcement of and advice as to

1

conditions
State court's revocation of remaining 15 years of state prisoner's suspended
sentence for rape convictions, while prisoner was incarcerated due to the prior
revocation of the first five years of the suspended sentence, did not violate
prisoner's due process rights, although prisoner claimed that he did not receive
notice that he was subject to conditions of probation while he was in prison;
statements made by judge at first revocation hearing made it sufficiently clear
that prisoner was subject to the same condition of probation while incarcerated,
namely the condition that prohibited him from having romantic relationship with
any person who had minor children. U.S. Const. Amend. 14.

2

Criminal Law
Sentencing in General
State prisoner's counsel did not perform deficiently, at hearing to revoke the
remaining 15 years of prisoner's sentence for rape convictions, in failing to
advance argument that probation conditions did not apply to prisoner while he
was incarcerated after prior revocation of the first five years of his suspended
sentence, and instead stipulating to State's argument on the case law, and thus
counsel was not ineffective, although State subsequently conceded that two
cases upon which it had relied did not unequivocally support its argument; state
appellate court in effect held on appeal that counsel had stipulated to correct
statement of law, and counsel could not be deemed ineffective for failing to
advance a legally incorrect argument. U.S. Const. Amend. 6.

3

Criminal Law
Sentencing in General
Criminal Law €r3* Presentation of evidence regarding sentencing
At hearing to revoke the remaining 15 years of state prisoner's suspended
sentence for rape convictions, counsel was not ineffective in failing to call
former director of state's Department of Corrections or judge who had revoked
the first five years of prisoner's sentence to testify as witnesses, although the
former director and judge subsequently provided affidavits in support of
prisoner's habeas application alleging that he did not know that conditions of
probation applied to him while incarcerated; in the habeas proceedings, prisoner
claimed that the evidence provided in the former director's and judge's affidavits
only became available several years after the revocation hearing. U.S. Const.
Amend. 6; 28 U.S.C.A. § 2241.

4

2 of 6

Habeas Corpus

Review; Post-Conviction Relief and New Trial

I

1/4/2021 1:25 PM

https://nextcorrectional.westlaw.com/Document/Ia2fb672008211 leb8...

Leatherwood v. Braggs | WestlawNext

State prisoner's claim that state courts violated his right to due process, in
rejecting his postconviction claims as barred by res judicata without adequately
considering his new evidence, was not a cognizable federal habeas claim;
constitutional error alleged by prisoner focused only on state’s postconviction
remedy and not the judgment which provided the basis for his incarceration. U.S.
Const. Amend. 14; 28 U.S.C.A. § 2241.

!

*365 (D.C. No. 5:19-CV-01140-HE) (W.D. Oklahoma)
Attorneys and Law Firms
Michael D. Leatherwood, Pro Se
Keeley L. Miller, Office of the Attorney General for the State of Oklahoma, Litigation
Department, Oklahoma City, OK, for Respondent-Appellee
Before HARTZ, BALDOCK, and CARSON, Circuit Judges.
ORDER DENYING CERTIFICATE OF APPEALABILITY*
Harris L Hartz, Circuit Judge
Michael Leatherwood, a state prisoner proceeding pro se, requests a certificate of
appealability (COA) to appeal the dismissal by the United States District Court for the
Western District of Oklahoma of his application for relief under 28 U.S.C. § 2241. See 28
U.S.C. § 2253(c)(1)(A) (requiring COA for state prisoner to appeal); Dulworth v. Jones, 496
F.3d 1133, 1135 (10th Cir. 2007) ("[A] state prisoner seeking to appeal the denial of
habeas relief in a § 2241 proceeding must obtain a COA to appeal.’’), abrogated in part on
other grounds by Harbison v. Bell, 556 U.S. 180, 129 S.Ct. 1481, 173 L.Ed.2d 347
(2009). We deny the request for a COA and dismiss the appeal.
In 2009 Mr. Leatherwood pleaded guilty to six counts of rape in Oklahoma state court and
was sentenced to 20 years in prison, with all but 90 days to be suspended. After Mr.
Leatherwood violated a condition of his probation prohibiting him from having a romantic
relationship with any person who has minor children, Judge Kenneth Watson revoked five
years of the suspended sentence. Several months later, in August 2010, another Oklahoma
state judge revoked the remaining 15 years of Mr. Leatherwood's suspended sentence
because Mr. Leatherwood had continued to maintain a relationship with a person who had
minor children.
In 2013 Mr. Leatherwood filed his first application for habeas relief under 28 U.S.C. §
2241, challenging the second revocation of his suspended sentence—the one for 15
years. The district court denied the application, and we affirmed. See Leatherwood v,
Ailbaugh, 861 F.3d 1034, 1051 (10th Cir. 2017).

3 of 6

1/4/2021 1:25 PM

Leatherwood v. Braggs | WestlawNext

https://nextcorrectional.westlaw.com/Document/Ia2fb6720082111 eb8...

On December 6, 2019, Mr. Leatherwood filed a second application for habeas relief under
§ 2241. He raised three claims in his application: (1) he was denied due process when the
state court based the revocation of his suspended sentence on violations of the conditions
of his probation while he was incarcerated; (2) his counsel at the revocation hearing was
constitutionally ineffective; and (3) the state courts violated his right to due process in
improperly disposing of his claims during postconviction proceedings. Recognizing that this
court had ruled against him on his first application under § 2241, Mr. Leatherwood
contends that his second application is justified by three pieces of new evidence: (1) a
2015 affidavit of Justin Jones, former director of the Oklahoma Department of Corrections,
stating his opinion that Mr. Leatherwood would not have been subject to conditions of
probation while in prison; *366 (2) a 2016 affidavit of Judge Watson attesting that the judge
did not warn Mr. Leatherwood that his probation conditions would apply while Mr.
Leatherwood was incarcerated; and (3) a “concession” by counsel for Oklahoma made
during the March 23, 2017 oral argument in Mr. Leatherwood's first appeal to this court
that two cases upon which the State had previously relied did not unequivocally hold that a
probation condition can apply to an incarcerated individual.
The district court concluded that Mr. Leatherwood's second application was untimely,
dismissed the application, and declined to grant a COA. Mr. Leatherwood then filed a
motion for relief from judgment under Federal Rule of Civil Procedure 60(b), which
concerned the timeliness of his § 2241 application. It was denied by the district court. Mr.
Leatherwood now seeks a COA from this court with respect to both the initial dismissal of
his application and the denial of his Rule 60(b) motion.
A COA will issue “only if the applicant has made a substantial showing of the denial of a
constitutional right.” 28 U.S.C. § 2253(c)(2). This standard requires “a demonstration that
... includes showing that reasonable jurists could debate whether (or, for that matter, agree
that) the petition should have been resolved in a different manner or that the issues
presented were adequate to deserve encouragement to proceed further.” Slack v.
McDaniel, 529 U.S. 473, 484, 120 S.Ct. 1595, 146 L.Ed.2d 542 (2000) (internal quotation
marks omitted). In other words, the applicant must show that the district court's resolution
of the constitutional claim was either “debatable or wrong.” Id. If the application was denied
on procedural grounds, as was the case here, the applicant faces a double hurdle. Not only
must the applicant make a substantial showing of the denial of a constitutional right, but he
must also show “that jurists of reason would find it debatable whether the district court was
correct in its procedural ruling.” Id.
We deny Mr. Leatherwood's request for a COA, although our reasons do not precisely
track those of the district court. See Davis v. Roberts, 425 F.3d 830, 834 (10th Cir. 2005)
(“[W]e have discretion to affirm on any ground adequately supported by the record.”).
A. Due Process
1 Mr. Leatherwood asserts that his due-process rights were violated when the
Oklahoma court revoked the remaining 15 years of his suspended sentence, because he

4 of 6

1/4/2021 1:25 PM

Leatherwood v. Braggs | WestlawNext

https://nextcorrectional.westlaw.com/Document/Ia2fb6720082111eb8...

did not receive notice that he was subject to conditions of probation while he was in prison.
He raised this same claim in his initial § 2241 application, and we rejected it on the merits,
largely because of statements made by Judge Watson at the first revocation hearing. See
Leatherwood, 861 F.3d at 1046-48. We do so once again. Mr. Leatherwood's “new
evidence” does not undermine the reasoning of our prior opinion. The affidavit of Judge
Watson regarding what he did not say at the revocation hearing is of no moment, because
we had, and relied on, a transcript of the hearing during our prior review. As for the Jones
affidavit and the State's concession at oral argument, Mr. Leatherwood suggests that they
prove that he could not have known he was subject to those conditions. But they prove no
such thing. They are irrelevant to what Mr. Leatherwood had been informed of; he could
have known nothing of the affidavit or the concession when he violated the conditions of
probation. They may be relevant to the state of the law in Oklahoma at the time of his
violations, but that is not at issue. The Oklahoma courts have resolved against Mr.
Leatherwood his *367 claim that the revocation of his probation was contrary to state law.
The only question is whether he was adequately apprised of what the law was. And we
have no reason to change our analysis on that issue from what we decided in Mr.
Leatherwood's earlier appeal.
B. Ineffective Assistance of Counsel
2 Mr. Leatherwood's second claim is that his counsel was constitutionally ineffective
in two respects at the August 2010 revocation hearing. First, relying on the State's
“concession,” he alleges that his attorney was ineffective because the attorney “stipulated
to the State's argument on the case law, which the State now concedes is incorrect.” Aplt.
Br. at 39. But in affirming Mr. Leatherwood's sentence after the second revocation, the
Oklahoma Court of Criminal Appeals in effect held that his counsel had stipulated to a
correct statement of the law. Counsel is not ineffective for failure to advance a legally
incorrect argument. See Miller v. Mullin, 354 F.3d 1288, 1298 (10th Cir. 2004) (“[0]f
course, if the issue is meritless, its omission [by counsel] will not constitute deficient
performance.”).
3 Mr. Leatherwood's second basis for alleging ineffective assistance of counsel is
that his attorney was ineffective for failing to call Mr. Jones and Judge Watson to testify at
the August 2010 revocation hearing. But in arguing that his second § 2241 application is
not untimely, Mr. Leatherwood has asserted that the evidence provided in the Jones and
Watson affidavits only became “available subsequent to the [2015] resignation of Judge
Watson, and subsequent to the [2013] resignation of Justin Jones as Director of the
Oklahoma Department of Corrections.” Aplt. App., Vol. I. at 24. Of course, if, as Mr.
Leatherwood contends, Mr. Jones and Judge Watson were not available to give evidence
until several years after the August 2010 revocation hearing, then Mr. Leatherwood's
attorney could not have been ineffective for failing to call them as witnesses at that
hearing.

4

5 of 6

C. Due Process II
Mr. Leatherwood's third claim for habeas relief is that the Oklahoma courts violated

1/4/2021 1:25 PM

UNITED STATES COURT OF APPEALS

FILED
United States Court of Appeals
Tenth Circuit

FOR THE TENTH CIRCUIT

November 30, 2020
Christopher M. Wolpert
Clerk of Court

MICHAEL DON LEATHERWOOD,
Petitioner - Appellant,

No. 20-6106
(D.C. No. 5:19-CV-01140-HE)
(W.D. Okla.)

v.
JEORLD BRAGGS, JR.,
Respondent - Appellee.

ORDER

Before HARTZ, BALDOCK, and CARSON, Circuit Judges.

Appellant’s petition for rehearing is denied.
The petition for rehearing en banc was transmitted to all of the judges of the court
who are in regular active service. As no member of the panel and no judge in regular
active service on the court requested that the court be polled, that petition is also denied.
Entered for the Court

CHRISTOPHER M. WOLPERT, Clerk

/faPo/AI* B

Case 5:19-cv-01140-HE Document 12 Filed 03/31/20 Page 1 of 14

IN THE UNITED STATES DISTRICT COURT FOR THE
WESTERN DISTRICT OF OKLAHOMA
MICHAEL DON LEATHERWOOD,
Petitioner,
v.
JEORLD BRAGGS, Warden,
Respondent.

)
)
)
)
)
)
)
)
)

Case No. CIV-19-1140-HE

REPORT AND RECOMMENDATION
Petitioner Michael Don Leatherwood, appearing through counsel, brings this, his
second 28 U.S.C. § 2241 habeas petition,1 challenging revocation of fifteen years of his
suspended sentence. (ECF No. 1). United States District Judge Joe Heaton referred this
matter for initial proceedings consistent with 28 U.S.C. § 636(b)(l)(B)-(C). Respondent
has moved to dismiss the Petition as untimely. (ECF No. 8). Mr. Leatherwood responded
to the Motion to Dismiss. (ECF No. 11). Because Mr. Leatherwood filed his habeas petition
on December 6, 2019, after the relevant limitation period had expired on March 24, 2018
it is recommended that Respondent's Motion to Dismiss (ECF No. 8) be GRANTED.
I.

BACKGROUND AND PROCEDURAL HISTORY
On May 18, 2009, Mr. Leatherwood pled guilty in the Oklahoma County District

Court to two counts of Rape in the First Degree and four counts of Rape by
Instrumentation in the First Degree. (ECF No. 1-6). The same day, District Judge Kenneth
Watson sentenced Petitioner to concurrent terms of twenty years' imprisonment on each
1 This Court denied Mr. Leatherwood's first 2241 habeas petition in Case No. CIV-13-1149-HE.
The Tenth Circuit Court of Appeals affirmed the denial of habeas relief. See Leatherwood /.
Allbaugh, 861 F.3d 1034 (10th Cir. 2017).

Case 5:19-cv-01140-HE Document 12 Filed 03/31/20 Page 2 of 14

count. The sentencing order required Mr. Leatherwood to serve the first ninety days of
his sentence in the Oklahoma County Jail. The remainder of his sentences were to be
suspended, subject to certain conditions of probation. (ECF No. 1-6 at 2). "The rules and
conditions [of] probation as ordered by the court and signed by the defendant,
acknowledging his/her understanding of the rules and conditions, are incorporated as
Exhibit B." (ECF No. 1-6 at 2). Additionally, Exhibit B incorporated the Special Probation
Conditions for Sex Offenders. One of the Special Probation Conditions, Rule 17, prohibited
Mr. Leatherwood from "dat[ing], socializing], or entering] into a romantic or sexual
relationship with any person who has children under the age of eighteen (18) years
present in their residence or custody at any time." Leatherwood v. Allbaugh, 861 F.3d
1034, 1040 (10th Cir. 2017). Mr. Leatherwood did not enter jail immediately after his
sentencing; Judge Watson ordered him to report to jail on January 8, 2010.
But on September 23, 2009, before the scheduled start of his ninety-day jail term,
the State filed an application to revoke Mr. Leatherwood's suspended sentence, alleging
he had violated several parole conditions. Mr. Leatherwood was immediately jailed, and
on January 8, 2010, Judge Watson presided at the revocation hearing. Mr. Leatherwood's
counsel stipulated to five of the alleged probation violations, including a violation of Rule
17, based on Mr. Leatherwood's relationship with Regina Wood, the mother of two minor
children. The sentencing judge revoked five years of Mr. Leatherwood's suspended
sentence. Mr. Leatherwood did not appeal from the five-year revocation. Id.2

2 Mr. Leatherwood was transferred to a Lexington Correctional Center in Lexington, Oklahoma on
September 3, 2010.
2

Case 5:19-cv-01140-HE Document 12 Filed 03/31/20 Page 3 of 14

Mr. Leatherwood also did not end his relationship with Ms. Wood when he entered
prison, prompting the State to file a second application to revoke his suspended sentences
on April 14, 2010. Judge Watson recused himself from the hearing, and Judge Tammy
Bass-LeSure presided. Mr. Leatherwood admitted his ongoing relationship with Ms. Wood.
Based on the evidence and Mr. Leatherwood's statements, Judge Bass-LeSure revoked
the remaining fifteen years of his suspended sentence. Id.
Mr. Leatherwood filed a direct appeal to the OCCA challenging the fifteen-year
revocation on due process grounds. He first argued that Rule 17 failed to warn him that
the terms of probation applied while he was incarcerated. He asserted that the revocation
was so arbitrary as to be fundamentally unfair. He contended that Judge Bass-LeSure
was biased. Finally, he alleged cumulative error required reversal. The OCCA affirmed the
revocation on January 13, 2012. (ECF No. 9-2).
On April 11, 2012, Mr. Leatherwood filed his first application for post-conviction
relief in the sentencing court challenging the revocation of his suspended sentences. The
court denied his application for post-conviction relief on June 18, 2012. (ECF No. 9-1 at
24-25). Mr. Leatherwood appealed to the OCCA which affirmed denial of post-conviction
relief on May 15, 2013. (ECF No. 9-3).
On October 28, 2013, Mr. Leatherwood filed his first § 2241 Petition for Writ of
Habeas Corpus in Case No. CIV-13-1149-HE, challenging the revocation of his suspended
sentences. (ECF No. 9-4). On July 25, 2016, this Court denied his petition along with his
request for an evidentiary hearing and his motion to supplement the record with affidavits
from former Oklahoma District Judge Watson and former Director of the Oklahoma

3

Case 5:19-cv-01140-HE Document 12 Filed 03/31/20 Page 4 of 14

Department of Corrections, Justin Jones. (ECF No. 9-5). The court did, however, issue a
Certificate of Appealability solely on the claim challenging imposition of conditions of
probation while Mr. Leatherwood was incarcerated. Leatherwood, 861 F.3d at 1041.
Mr. Leatherwood appealed this Court's decision to the United States Court of
Appeals for the Tenth Circuit in Case No. 16-6251 on August 4, 2016. (ECF No. 9-6). The
Tenth Circuit panel assigned to decide the appeal heard oral arguments on March 23,
2017. The panel affirmed this Court's denial of Mr. Leatherwood's petition on June 27,
2017. (ECF No. 9-7).
On August 24, 2017, Mr. Leatherwood filed a Petition for Writ of Flabeas Corpus
and an Application for Evidentiary Hearing in Payne County District Court, again
challenging the validity of the revocation of his suspended sentences in Oklahoma County.
(ECF No. 9-8). The Payne County District Court dismissed the Petition on October 6, 2017,
finding the action barred by the doctrine of res judicata and further finding Mr.
Leatherwood should have sought post-conviction relief in the sentencing court. (ECF No.

9-9).
On September 18, 2017, while the Payne County Petition for Writ of Habeas Corpus
was pending, Mr. Leatherwood filed his Second Application for Post-Conviction Relief in
Oklahoma County District Court, Case No. CF-07-4162 (ECF 9-1:26-27). The next day,
the State filed a Motion to Strike the application based on its excessive number of pages
being a violation of local rules. Mr. Leatherwood responded to the Motion to Strike, but
on April 23, 2018, the Oklahoma County District Court struck Mr. Leatherwood's
application from the record for being in violation of Local Rule 37(B) governing the length

4

Case 5:19-cv-01140-HE Document 12 Filed 03/31/20 Page 5 of 14

of documents. The court granted him leave to file a proper application for post-conviction
relief. (ECF No. 9-10). Mr. Leatherwood filed an Amended Second Application for PostConviction Relief in Oklahoma County District Court, Case No. CF-07-4162 on May 18,
2018. The district court denied the application on November 29, 2018. (ECF No. 9-1:28-

29).
Mr. Leatherwood appealed the State district court's denial of his Amended Second
Application for Post-Conviction Relief on January 25, 2019, Case No. PC-19-52. (ECF 911). The OCCA affirmed the denial of post-conviction relief on June 12, 2019. (ECF 9-12).
On December 6, 2019, Mr. Leatherwood filed the instant Petition for Writ of Habeas
Corpus Under 28 U.S.C. § 2241. (ECF No. 1).
II.

GROUNDS FOR HABEAS RELIEF
In this petition, Mr. Leatherwood raises the following grounds for relief based both

on the United States Constitution and the Constitution of the State of Oklahoma.3
Ground One:

The revocation of petitioner's suspended sentences
constitutes a denial of his right to due process guaranteed by
the fifth and fourteenth amendments to the United States
Constitution and the Oklahoma Constitution, art. 2, § 7.

Ground Two:

Petitioner was denied his right to effective assistance of
counsel in violation of his rights under the Sixth, Eighth and
Fourteenth Amendments to the United States Constitution
and Article II §§ 7, 9, 20 of the Oklahoma Constitution.

Ground Three:

The court erred in finding that Petitioner's claim that probation
rule 17 did not apply while he was in prison was res judicata,
and Petitioner's right to due process was violated.

3 Mr. Leatherwood's Oklahoma Constitutional claims must be dismissed without prejudice because
such claims are not based on the Constitution of the United States, the jurisdictional basis of
federal habeas claims. See 28 U.S.C. § 2241(c)(3).
5

Case 5:19-cv-01140-HE Document 12 Filed 03/31/20 Page 6 of 14

III.

ANALYSIS
Mr. Leatherwood challenges the revocation of the remaining fifteen years of his

suspended sentences. The crux of his argument is that the conditions of probation
included in his original sentence should not have been applied to him while he was
incarcerated.
In its Motion to Dismiss, the State contends this § 2241 Petition for Writ of Habeas
Corpus was filed after the applicable one-year limitation period had expired.
A. Applicable Law Regarding Statute of Limitations
Under the Antiterrorism and Effective Death Penalty Act of 1996 (AEDPA), an
application for a § 2241 writ of habeas corpus challenging the execution of a state
sentence is subject to a one-year limitation period. Burger v. Scott, 317 F.3d 1133, 1138
(10th Cir. 2003). Section 2244(d), sets the date the limitation period begins to run—from
the latest of: (A) the date on which the judgment became final by the conclusion of direct
review or the expiration of the time for seeking such review; (B) the date on which the
impediment to filing an application created by State action in violation of the Constitution
or laws of the United States is removed, if the applicant was prevented from filing by
such State action; (C) the date on which the constitutional right asserted was initially
recognized by the Supreme Court, if the right has been newly recognized by the Supreme
Court and made retroactively applicable to cases on collateral review; or (D) the date on
which the factual predicate of the claim or claims presented could have been discovered
through the exercise of due diligence. 28 U.S.C. § 2244(d)(1).

6

Case 5:19-cv-01140-HE Document 12 Filed 03/31/20 Page 7 of 14

The one-year limitation period is tolled during "the time in which a properly filed
application for State post-conviction or other collateral review ... is pending." 28 U.S.C.
§ 2244(d)(2). But tolling applies only to the pendency of properly filed State applications
for collateral review—not for the pendency of a federal petition for habeas corpus or an
appeal from the denial of such action. Duncan v. Walker, 533 U.S. 167, 181-82 (2001).
The limitation period may also be subject to equitable tolling in "rare and
exceptional circumstances." Gibson v. Klinger, 232 F.3d 799, 808 (10th Cir. 2000)
(quotations omitted). To qualify for equitable tolling, a petitioner must show "(1) that he
has been pursuing his rights diligently, and (2) that some extraordinary circumstance
stood in his way and prevented timely filing." Holland v. Florida, 560 U.S. 631, 649 (2010)
(quotations omitted). "An inmate bears a strong burden to show specific facts to support
his claim of extraordinary circumstances and due diligence." Yang v. Archuleta, 525 F.3d
925, 928 (10th Cir. 2008) (brackets and quotations omitted).
B. Date Mr. Leatherwood's Limitations Period Began to Run
In his response to the Motion to Dismiss, Mr. Leatherwood first contends that his
conviction did not become "final" until the OCCA affirmed the state district court's decision
denying his second application for post-conviction relief. (ECF No. 11:14). This argument
runs counter to the plain language of AEDPA—that the limitations period begins to run
"on the date on which the judgment became final by the conclusion of direct review or
the expiration of the time for seeking such review." 28 U.S.C. § 2244(d)(1)(A) (emphasis
added). The OCCA's affirmance of denial of post-conviction relief does not constitute part

7

Case 5:19-cv-01140-HE Document 12 Filed 03/31/20 Page 8 of 14

of the "direct review" process. Direct review of this case ended on January 13, 2012, with
the OCCA's opinion affirming revocation of his sentences on direct appeal. (ECF No. 9-2).
In the alternative, Mr. Leatherwood contends § 2244(d)(1)(D) is applicable to his
Petition based on newly discovered evidence—the State's concession during oral
argument on March 23, 2017, before the Tenth Circuit that the two cases upon which the
state had consistently relied do not squarely hold that terms of probation apply while a
prisoner is incarcerated. Mr. Leatherwood also presents two affidavits he would like for
this Court to consider, one signed by Kenneth Watson, the former Oklahoma County
District Judge that sentenced Mr. Leatherwood, and one signed by Justin Jones, formerly
director of the Oklahoma Department of Corrections. But these affidavits were obtained
before the March 23, 2017, oral argument and have no effect on the date the limitations
period began to run. Thus, March 24, 2017, is the latest possible date from which to
calculate the expiration of AEDPA's one-year limitation period.
Absent statutory or equitable tolling, Mr. Leatherwood's limitation period was set
to expire on March 24, 2018. See Harris v. Dinwiddie, 642 F.3d 902, 907 n.6 (10th Cir.
2011) ( anniversary method for computing limitations period and providing that the year
begins to run the day after conviction is final).
C. Statutory Tolling
Mr. Leatherwood filed two collateral actions attacking the revocation of his
sentence which, he contends, tolled the running of the limitation period. The first was
the Petition for Writ of Flabeas Corpus and Application for Evidentiary Hearing that Mr.
Leatherwood filed in the Payne County District Court, challenging the revocation of his

8

Case 5:19-cv-01140-HE Document 12 Filed 03/31/20 Page 9 of 14

suspended sentences in the Oklahoma County District Court. (ECF No. 9-8). That action
was pending from August 24, 2017, to October 6, 2017. The State contends the fortyfour days during which this state habeas action was pending does not toll the statute of
limitations because it was not "properly filed." The State bases this conclusion on the fact
that the Payne County Court dismissed the petition "in part because his claims were
improperly brought in the county that was not the situs of the original judgment and
sentence." (ECF No. 9:11).
Mr. Leatherwood counters that argument by citing Oklahoma law regarding state
habeas actions. SeeOkla. Stat. tit. 12, § 1331. ("Every person restrained of his liberty,
under any pretense whatever, may prosecute a writ of habeas corpus to inquire into the
cause of the restraint, and shall be delivered therefrom when illegal."). Additionally, Rule
10.6(C)(1), Rules of the Oklahoma Court of Criminal Appeals, states that absent an
extreme emergency, the OCCA "will not entertain an original application for a writ of
habeas corpus where such application has not been presented to and refused by the
District Court of the county where petitioner is restrained." Rule 10.6 (C)(1) (emphasis
added). The rule specifically states:
The writ of habeas corpus has not been suspended or altered by the PostConviction Procedure Act so long as the statutory appeal procedures enacted
by the Legislature have been first exhausted. The writ of habeas corpus is
not an authorization to bypass the statutory appeal process."
It appears, therefore, that a state petition for writ of habeas corpus meets the definition
of "other collateral review" for purposes of statutory tolling. In this case, however, Mr.
Leatherwood has not demonstrated, and this Court has not been able to establish, that

9

Case 5:19-cv-01140-HE Document 12 Filed 03/31/20 Page 10 of 14

he was ever incarcerated in Payne County. Thus, the days the Payne County habeas
application was pending did not toll the limitation period.
As noted, Mr. Leatherwood filed his Second Application for Post-Conviction Relief
on September 18, 2017, in Oklahoma County District Court, Case No. CF-07-4162, (ECF
9-1:26-27). The State moved to strike the application from the record the very next day,
based on non-compliance with Local Rule 37(B), governing the length of documents. Mr.
Leatherwood responded to the State's motion on September 22, 2017. On January 23,
2018, Mr. Leatherwood filed a motion for status conference. The Oklahoma County
District Court ultimately struck his Application for Post-Conviction Relief on April 23, 2018.
The Oklahoma County District Court granted Mr. Leatherwood leave to file a proper
application for post-conviction relief. (ECF No. 9-10). Mr. Leatherwood filed an "Amended
Second Application for Post-Conviction Relief" in Oklahoma County District Court, Case
No. CF-07-4162 on May 18, 2018. The court denied the application on November 29,
2018. (ECF No. 9-1:28-29), and the OCCA affirmed on June 12, 2019.
Respondent contends Mr. Leatherwood's Second Application for Post-Conviction
Relief did not toll the statute of limitations because it was not "properly filed." Respondent
based this argument on the fact that the application exceeded the number of pages
allowed by Local Rule 37(b). And when Mr. Leatherwood filed the page-compliant Revised
Second Application for Post-conviction Relief, Respondent continues, the limitations
period had already expired.
Regardless of the fact that the Oklahoma County District Court granted Mr.
Leatherwood leave to amend his application in order to comply with the local rules, his

10

Case 5:19-cv-01140-HE Document 12 Filed 03/31/20 Page 11 of 14

limitation period was not tolled for the time period between the filing of his second
application for post-conviction relief and the date it was stricken from the record because
the application was not properly filed. The tolling provision in 28 U.S.C. § 2244(d)(2)
provides that the one-year limitation period is tolled only while "a properly filed application
for State post-conviction or other collateral review with respect to the pertinent judgment
or claim is pending.. .." 28 U.S.C. § 2244(d)(2) (emphasis added). To meet the "properly
filed" requirement, an inmate must comply with state procedural requirements.
Habtese/assie v. Novak, 209 F.3d 1208, 1210-11 (10th Cir. 2000) (defining a "properly
filed" application as "one filed according to the filing requirements for a motion for state
post-conviction relief" and giving examples of such requirements). According to the
Supreme Court, "[a]n application is 'properly filed' when its delivery and acceptance are
in compliance with the applicable laws and rules governing filings," including "the form
of the document, the time limits upon its delivery, the court and office in which it must
be lodged, and the requisite filing fee." Artuz v. Bennett, 531 U .S. 4, 8 (2000). State
procedural law is applied to determine whether an application for state post-conviction
relief is "properly filed." Garcia v. Shanks, 351 F.3d 468, 471 (10th Cir. 2003).
There is no doubt that in this case, Mr. Leatherwood failed to comply with the
relevant state court filing requirements when, on September 18, 2017, he attempted to
file an application for post-conviction relief that exceeded the page limitation set forth in
Rule 37 of the Rules of the District Court, Seventh Judicial District.
The state district court struck Mr. Leatherwood's September 18, 2017 application
for post-conviction relief as not "properly filed" pursuant to the district court's procedural

11

Case 5:19-cv-01140-HE Document 12 Filed 03/31/20 Page 12 of 14

requirements. Therefore, Mr. Leatherwood did not "properly file" his second post­
conviction action during the applicable one-year limitation period. It follows that his
September 18, 2017 application for post-conviction relief did not serve to toll the
limitation period. See Pratt v. Mullin, No. 05-6008, 2006 WL 895501 (10th Cir. April 7,
2006) (unpublished decision) (implicitly agreeing with the district court's finding that §
2244(d)(2) tolling was inapplicable to petitioner's first post-conviction application which
was stricken by the state district court because it exceeded page limits established by
local rule).4 Accordingly, Petitioner is not entitled to statutory tolling pursuant to §
2244(d)(2) based On the application for post-conviction relief filed September 18, 2017.
D. Equitable Tolling
The remaining issue is whether equitable tolling applies to Mr. Leatherwood's
Petition for Writ of Habeas Corpus under § 2241—filed over eight months after the
statutory deadline.
AEDPA's limitation

period "may be subject to equitable tolling" under

circumstances where application of the period of limitation would possibly render the
habeas remedy "inadequate and ineffective." Miller v. Marr, 141 F.3d 976, 978 (10th Cir.
1998); Holland v. Florida, 560 U.S. 631, 645 (2010) ("holding] that § 2244(d) is subject
to equitable tolling in appropriate cases"). "Generally, a litigant seeking equitable tolling
bears the burden of establishing two elements: (1) that he has been pursuing his rights
diligently, and (2) that some extraordinary circumstance stood in his way." Sigala v.

4 See also Levering v. Dowling, 721 F. App'x 783, 787 (10th Cir. 2018) (finding a post-conviction
application filed in Oklahoma district court and stricken based on State's motion that application
exceeded page limitations of Local Rule 37, was not a properly filed application and did not trigger
statutory tolling).

12

Case 5:19-CV-01140-HE Document 12 Filed 03/31/20 Page 13 of 14

Bravo, 656 F.3d 1125, 1128 (10th Cir. 2011) (quoting Pace v. DiGugiieimo, 544 U.S. 408,

418 (2005)).
Even assuming a petitioner has been diligently pursuing his rights, the one-year
limitation period "is subject to equitable tolling . . . only in rare and exceptional
circumstances." Gibson v. Klinger, 232 F.3d 799, 808 (10th Cir. 2000) (citation omitted).
The petitioner must "demonstrate[ ] that the failure to timely file was caused by
extraordinary circumstances beyond his control." Marsh v. Soares, 223 F.3d 1217, 1220
(10th Cir. 2000). The burden of demonstrating that equitable tolling applies is on the
petitioner. Sigaia, 656 F.3d at 1128; Miller, 141 F.3d at 977. "Simple excusable neglect is
not sufficient." Gibson, 232 F.3d at 808.
Mr. Leatherwood contends that his motion for status conference demonstrates his
diligence. But this action, alone, does not create the "rare and exceptional circumstances"
required for equitable tolling. Mr. Leatherwood was aware, or became aware, of the state
district court's page limitation when Respondent filed the motion to strike his application—
the day after Mr. Leatherwood filed it. The fact that the state district judge did not rule
on Respondent's motion to strike until after AEDPA's one-year limitation period had run,
does not constitute an "uncontrollable circumstance [that] prevented Mr. Leatherwood]
from timely filing . . . ." Gibson, 232 F.3d at 808 (10th Cir. 2000). The state district judge
did nothing to prevent or prohibit Mr. Leatherwood from properly filing an application for
post-conviction relief that complied with the local rules. It was always within Petitioner's
control to properly file an application for post-conviction relief. Nothing "stood in his way
and prevented timely filing." Holland, 560 U.S. at 649 (internal quotation marks omitted).

13

Case 5:19-cv-01140-HE Document 12 Filed 03/31/20 Page 14 of 14

Additionally, Mr. Leatherwood could have filed a Petition in this Court and moved
for stay and abeyance while he finished exhausting his state court remedies. See Rhines
v. Webber, 544 U.S. 269 (2005).
Because Mr. Leatherwood has failed to demonstrate some extraordinary
circumstance stood in the way of his filing a timely § 2241 Petition, his Petition for Writ
of Habeas Corpus should be dismissed with prejudice.
RECOMMENDATION AND NOTICE OF RIGHT TO OBJECT
Based on the foregoing, the undersigned magistrate judge recommends that
Respondent's Motion to Dismiss (ECF No. 8) be GRANTED.
Any objection to this Report and Recommendation must be filed with the Clerk of
the District Court by April 17, 2020. See 28 U.S.C. § 636(b)(1); and Fed. R. Civ. P.
72(b)(2). Failure to make timely objection to this Report and Recommendation waives
the right to appellate review of both factual and legal questions contained herein.
Casanova v. Ulibarri, 595 F.3d 1120, 1123 (10th Cir. 2010).
STATUS OF THE REFERRAL
This Report and Recommendation terminates the referral to the undersigned
magistrate judge in the captioned matter.
ENTERED on March 31, 2020.

SHON T. ERWIN
UNITED STATES MAGISTRATE JUDGE

14

Case 5:19-cv-01140-HE Document 16 Filed 06/25/20 Page 1 of 8

IN THE UNITED STATES DISTRICT COURT FOR THE
WESTERN DISTRICT OF OKLAHOMA
MICHAEL DON LEATHERWOOD,
Petitioner,
vs.
JEORLD BRAGGS, JR., Warden,
Respondent.

)
)
)
)
)
)
)
)
)

NO. CIV-19-1140-HE

ORDER
Petitioner Michael Don Leatherwood, appearing through counsel, has filed a second
habeas petition pursuant to 28 U.S.C. § 2241.1 He again challenges the revocation by the
state district court of fifteen years of the suspended sentence imposed by that court. He
again argues the revocation was wrongful because the basis for it — violation of the terms
of his probation when he was not actually on probation — was incorrect. The court uses
the term “again” advisedly, because essentially all of the substantive arguments now relied
on by petitioner have been offered previously and rejected by this court and the Court of
Appeals as a basis for habeas relief. In any event, petitioner now claims there is new
“evidence” that warrants revisiting this again.
The petition was referred to U.S. Magistrate Judge Shon T. Erwin for initial
proceedings, pursuant 28 U.S.C. § 636(b)(1)(B) & (C). Respondent moved to dismiss the

1 As the Court of Appeals noted in its prior order, petitions like this one are viewed as
§2241 petitions in the Tenth Circuit, rather than §2254 petitions as they are viewed elsewhere.
The repetitive “second and successive ” nature of the present petition, without good cause, is
perhaps a good argument for reevaluating the rule.

Case 5:19-cv-01140-HE Document 16 Filed 06/25/20 Page 2 of 8

petition as untimely, and Judge Erwin has recommended that it be granted. Petitioner has
objected to the Report and Recommendation (the “Report”), which triggers de novo review
by this court.
The Report concludes that the relevant limitations period for the filing of the petition
expired on March 24, 2018, but that the petition was not filed until December 6, 2019.
Petitioner objects to the Report’s calculation of the relevant period and to its conclusion
that neither statutory nor equitable tolling warrant an extension of the pertinent deadline.
The court concludes the Report correctly identified the latest possible filing
deadline, March 24, 2018. As noted in the Report and as applicable here, the one year
limitation period runs from the later of the date on which the judgment became final by the
conclusion of direct review (28 U.S.C. § 2244(d)(1)(A)) or the date on which the factual
predicate for the claim could have been discovered through the exercise of due diligence
(28 U.S.C. § 2244(d)(1)(D)). Direct review in this case ended many years ago, long before
the December 6,2019, filing of this petition. The “factual predicate” upon which petitioner
relies is a “concession” as to the state of the law in Oklahoma, made by the State at oral
argument before the Tenth Circuit Court of Appeals, and two affidavits by former
Oklahoma officials. Oral argument was held on March 23, 2017.

The affidavits were

known to petitioner at the time of the oral argument (indeed, he was trying to get them
considered by this court and the Court of Appeals then). So, the last event arguably
qualifying as a new factual predicate was the concession at oral argument. One year from
that date is March 24, 2018, as the Report correctly concluded.

2

Case 5:19-cv-01140-HE Document 16 Filed 06/25/20 Page 3 of 8

Petitioner contends he is entitled to statutory tolling based on two post-conviction
proceedings he commenced in state court. He filed a petition for writ of habeas corpus in
the District Court of Payne County, which was pending there for 46 days, and a second
application for post-conviction relief in the District Court of Oklahoma County. The
Oklahoma County application was filed September 18, 2017, and stricken by the court on
April 23, 2018. The Report concluded the Payne County proceeding did not qualify for
tolling because it depended on petitioner being incarcerated in that county at the time and
that fact had not been shown. It concluded the Oklahoma County proceeding did not
qualify because the petition was not “properly filed” within the meaning of 28 U.S.C. §
2244(d)(2).
With respect to the Payne County proceeding, the court concludes petitioner should
be credited with the pertinent time. The Report noted that, under Oklahoma law, a properly
filed habeas petition must be filed in the county where the petitioner is incarcerated. It
concluded that fact had not been shown. And indeed, it appears not to have been shown
as of the time the magistrate judge generated the Report. There is no reference to the Payne
County proceeding in the petition filed in this court and the petitioner’s response to the
motion to dismiss does nothing more than assert he complied with the applicable state
statute. However, he has since referenced an allegation in the petition filed in Payne
County to the effect that he was incarcerated there and has also submitted other evidence
that he was, in fact, incarcerated in Payne County at the time of filing that petition. The
court therefore concludes Mr. Leatherwood could establish the Payne County petition was

3

Case 5:19-cv-01140-HE Document 16 Filed 06/25/20 Page 4 of 8

properly filed and that he therefore qualifies for 46 days of statutory tolling due to the
pendency of that proceeding.
With respect to the Oklahoma County proceeding, the Report concluded it was not
“properly filed” and therefore did not qualify for statutory tolling. The conclusion as to
proper filing was based on violation of the local court rules. Local Rule 37(b) for
Oklahoma County District Court states that “[a]ll motions, applications and responses
thereto .. . shall not exceed twenty (20) pages in length, excluding exhibits, without prior
permission of the assigned judge.” The State immediately moved for dismissal of the
application based on violation of that rule and the court eventually struck it on that basis.
Petitioner does not dispute that his application exceeded the 20-page limit and that he did
not have permission to exceed it from the assigned judge. Rather, he argues that the court
improperly struck the oversized application under then Rule 37(D) (now Rule 37(E)) which
states: “Any motion and/or brief filed in violation of this rule shall not be considered by
the assigned judge and shall be stricken from the record.”
It may well be, as petitioner argues, that the mandatory “striking” required by Rule
37(D) applies only to “motions and briefs” and not to “applications” like what he filed.
But it is nonetheless clear that the application he filed violated the twenty-page limit of
37(B), which applied to applications as well as motions. It was thus not properly filed
under the rule and the striking of it was justified by the rule, whether due to the mandatory
language of 37(D) or the judge’s action separately. The Report correctly concluded the
Oklahoma County proceeding does not qualify for statutory tolling.

4

Case 5:19-cv-01140-HE Document 16 Filed 06/25/20 Page 5 of 8

Petitioner also argues, for the first time in his objection to the Report,2 that an
application for an evidentiary hearing was filed on the same date as his second application
for post-conviction relief and that it serves to toll the limitations period even if the petition
was stricken. The court has considerable doubt whether a motion filed in a proceeding
invoked by a defective application has independent significance in this context, but it is
unnecessary to resolve the issue here. Arguments raised for the first time in an objection
to a Magistrate Judge’s recommendation are deemed to have been waived.

Standing

Akimbo, LLC v. United States, 955 F.3d 1146, 1159 (10th Cir. 2020) (citations omitted).
The court will therefore not consider whether this filing tolls the limitations period.
The result is that petitioner is entitled to statutory tolling only as to the Payne County
proceeding, which was for 46 days. That is not enough to fill the approximately twentymonth gap between March 24, 2018, and his filing of the petition here on December 6,
2019. So, the question becomes whether the Report is correct that no basis for equitable
tolling has been shown.
Under 28 U.S.C. § 2244(d), the one-year time limit is “subject to equitable tolling
in appropriate cases.” Holland v. Florida, 560 U.S. 631, 645 (2010). “[A] petitioner is
entitled to equitable tolling only if he shows (1) that he has been pursuing his rights
diligently, and (2) that some extraordinary circumstance stood in his way and prevented

2 Petitioner’s response to respondent’s motion to dismiss does mention that an application
for evidentiary hearing was fded the day after his oversized second application for post-conviction
relief was fded, but he does not present any argument in that response as to why thatfiling should
statutorily toll the limitations period. Doc. #11, pp. 9-15.
5

Case 5:19-cv-01140-HE Document 16 Filed 06/25/20 Page 6 of 8

timely filing.” Id. at 649 (quotations and citation omitted). “[T]he exercise of a court’s
equity powers must be made on a case-by-case basis”, permitting flexibility to avoid the
mechanical application of rules. Id. at 649-50 (quotations and citations omitted). The
Report concluded that petitioner failed to demonstrate extraordinary circumstances
sufficient to justify equitable tolling.
Petitioner objects to that conclusion, arguing that extraordinary circumstances exist
because the Oklahoma County district court abused its discretion in striking his oversized
second application. As noted above, the application did not comply with the local rules,
and, while it may not have been subject to mandatory striking, it was nonetheless within
that court’s power to strike the application for noncompliance with the rules. There was
no abuse of discretion and hence no “extraordinary circumstance” based on the striking of
the application.
Petitioner also argues that extraordinary circumstances exist in his case due to the
delay between the state’s filing its motion to strike his second application on September
19, 2017, and the court’s ruling on that motion April 19, 2018. Petitioner contends that he
diligently sought relief before that court by filing a response to that motion on September
22, 2017, as well as a motion for a status conference on January 23, 2018, sufficient to
demonstrate that extraordinary circumstances prevented him for timely filing his petition.
While plaintiff, who was represented by counsel throughout all relevant
proceedings, appears to have diligently pursued his position in various ways, that does not
mean the “extraordinary circumstance” element is satisfied. The Report correctly notes
that nothing prevented him from timely filing a habeas petition with this court and,
6

Case 5:19-cv-01140-HE Document 16 Filed 06/25/20 Page 7 of 8

potentially, seeking a stay and abeyance while he exhausted his state court remedies. The
court concludes that petitioner has failed to demonstrate that extraordinary circumstances
prevented him from timely filing his petition.
Accordingly, after de novo review, the Report and Recommendation [Doc. # 12] is
ADOPTED. Respondent’s Motion to Dismiss [Doc. # 8] is GRANTED and the petition
is DISMISSED. Further, in the circumstances of this case, the court concludes petitioner
has not made a substantial showing of the denial of a constitutional right and therefore
DECLINES to GRANT a certificate of appealability. In reaching that conclusion, the
court notes again that virtually all of petitioner’s current arguments have been presented
and rejected in prior proceedings. He sought to offer the affidavits from Judge Watson and
Mr. Jones in the prior proceeding. This court declined to permit that supplementation of
his petition and the Court of Appeals affirmed, noting that the affidavits did not ultimately
go to any issue cognizable in a federal habeas case. Leatherwood v. Allbaugh. 861 F.3d
1034, 1043 & fn.8 (10th Cir. 2017). Further, the new “evidence” doesn’t appear to offer
any new fact of consequence. The affidavits are essentially legal or lay opinions as to what
Oklahoma law requires or permits, not new factual evidence of any sort,3 and the
“concession” at oral argument is nothing more than legal argument as to what Oklahoma
law required, permitted or allowed.

3 Petitioner views Judge Watson’s affidavit as showing what he told Mr. Leatherwood and
what he intended by his statements. What the judge told Mr. Leatherwood is a matter of record,
which has already been reviewed and ruled on by this court and the Court ofAppeals. Whatever
intention the judge may have had differentfrom that is ofno moment in evaluating what petitioner
was on notice of.
1

Case 5:19-cv-01140-HE Document 16 Filed 06/25/20 Page 8 of 8

IT IS SO ORDERED.
Dated this 25th day of June, 2020.

JOE HEATON
UNITED STATES DISTRICT JUDGE

8

Additional material
from this filing is
available in the
Clerk's Office.

